%

,i x.

H .O, p n n n P!
I j'; p b 1 '

!

.!

• '

\'

1

• pi■ 1'• 1

iM

;

1

■ ; ;1

! ij UP PU U U\P/PP "J
t.V-

r‘

No.
3ln tlje

Supreme Court of tfje ?Hmte& States

SuPra^o?I7‘ TT™—,
FILED " '"■
;(

JUL is
IN RE ABDUL MOHAMMED, PETITIONER,

£

OFFICE OF tp

On Petition for Writ of Mandamus to the United
States District Court for the Northern District of
Illinois and the Executive Committee of the
United States District Court for the Northern
District of Illinois

PETITION FOR WRIT OF MANDAMUS

Abdul Mohammed
Pro Se Petitioner
258 E. Bailey Rd, Apt C,
Naperville, IL 60565
(630) 854-5345
aamohammed@hotmail.com

July 16, 2020

1

rJ

QUESTION PRESENTED
The questions presented are:
1) whether the Executive Committee’s Order
entered against the Petitioner on June 17, 2020 is
legal;
2) whether the dismissal of Case # 20-cv-50133
appropriate and legal.
PARTIES TO PROCEEDING
Petitioner (Plaintiff in the District Court, Respondent
in the Executive Committee’s Order and Mandamus
Petitioner in this court) is Abdul Mohammed.
Respondents in this court are United States District
Court for the Northern District of Illinois, Chief Judge
Rebecca Pallmeyer, Judge Jorge Alonso, Judge Gary
Feinerman, Judge John Blakey, Judge Ronald
Guzman, Judge Robert Gettleman and Members of
the Executive Committee of the United States District
Court for the Northern District of Illinois.

2

TABLE OF CONTENTS
QUESTIONS PRESENTED...........................
TABLE OF AUTHORITIES...........................
PETITION FOR WRIT OF MANDAMUS....
OPINIONS BELOW.......................................
JURISDICTION..............................................
STATEMENT OF THE CASE......................
REASONS FOR GRANTING MANDAMUS
CONCLUSION................................................

1
4
8

8
8
8

£

36

39

3

V

APPENDIX
Appendix A
Order of the Executive Committee
App-31-32
(June 17, 2020)
School District Defendants’ Vexatious
App-1-15
Litigant Motion.............
Amended
Petitioner’s
Second
School
District
Response
to
App-16-27
Defendants’ Motion
Petitioner’s Supplemental Response
to School District Defendants’
App-28-30
Motion
Judge Blakey’s Order of May 18
App-33
2020

r

Judge Blakey’s Order of July 10,
App-34
2020

~r

4

TABLE OF AUTHORITIES
Cases:
Ringgold-Lockhart v. County of Los Angeles,
No. 11-57231 (9th Cir. 2014)............................
..................................... 8, 15,22,23,25,26,29,36,37,38
Goolsby v Gonzalez, Case# ll-cv-00494-LJOGSA-PC, ED.CA)

8, 10,11,12,13,14,15,23,37

Cheney v. United States Dist. Court for D.C. (03-475)
8

542 U.S. 367 (2004) 334 F.3d 1096)

De Long, 912 F.2d at 1147-48).....10,16,17,19,20,21
Morton v. Wagner, 156 Cal.App.4th 963, 970-71
(Cal. App. 6 Dist. 2007).).............

vP'

10

Delew v. Wagner, 143 F.3d 1219,
1222 (9th Cir. 1998)......................

15

BE &K Const. Co. v. NLRB, 536 U.S. 516, 524-25
15
(2002)......................................................
Christopher v. Harbury, 536 U.S. 403
415 n. 12 (2002).....................................

15

Molski v. Evergreen Dynasty Corp., 500 F.3d 1047,
1057 (9th Cir. 2007)

15,16,17,18,19,21,26

Moy v. United States, 906 F.2d 467, 470
(9th Cir. 1990).............................................

16,17,21

Safir v. U.S. Lines, Inc., 792 F.2d 19, 24
(2d Cir. 1986)..............................................

17,21,28

Cromer v. Kraft Foods N. Am., Inc., 390 F.3d 812,

5

17

818 (4th Cir. 2004)

Wood v. Santa Barbara Chamber of Commerce, Inc.,
705 F.2d 1515, 1524 (9th Cir. 1983).................... 17,21
H.C. v. Koppel, 203 F.3d 610, 612
(9th Cir. 2000).......................................................

18

In re Powell, 851 F.2d 427, 431
(D.C. Cir. 1988)................................................... 20,21
In re Oliver, 682 F.2d 443, 444 (3d Cir. 1982) .,

21

In re Green, 669 F.2d 779,781
(D.C. Cir. 1981)....................................................

21

Peacock Records, Inc. v. Checker Records, Inc.,
430 F.2d 85, 89 (7th Cir. 1970)...........................

23
■r-

Bell Atl. Corp. v. Twombly, 550 U.S. 544,
556 (2007).............................................................

20

Cook v. Peter Kiewit Sons Co., 775 F.2d 1030, 1033

(9th Cir. 1985).................................................. 28
Vicom, Inc. v. Harbridge Merchant Services, Inc.,
20 F.3d 771, 775-76 (7th Cir. 1994)........................ 32
Davis v. Ruby Foods, Inc., 269 F.3d 818, 821
(7th Cir. 2001)

32,33,38

Crenshaw v. Antokol, 206 F. App’x 560, 563
(7th Cir. 2006).............................................

.32

Kittay v.Kornstein, 230 F.3d 531, 541
(2d Cir. 2000).............................................

.33,35,38

In re Westinghouse Securities Litigation,

6

90 F.3d 696, 702 (3d Cir.1996)..................

33,35

Kuehl v. FDIC, 8 F.3d 905, 908
(1st cir. 1993)................................................ .33,35,38
Mangan u. Weinberger, 848 F.2d 909, 911
(8th Cir. 1988)................................................

.33

Salahuddin v. Cuomo, 861 F.2d 40,
42 (2d Cir. 1988)...........................................

.22

Bennett v. Schmidt, 153 F.3d 516, 517
(7th cir. 1998)...............................................

35,38

Simmons v. Abruzzo, 49 F.3d 83, 87
(2d Cir. 1995)...............................................

35,38

Mohammed v the State of Illinois,
Case.No.20-cv-50133, ND.I1 .....................

.38

Constitutional Provisions:
15,36,37
1st Amendment Right to Petition
Due Process and Equal Protection Clause of the 5th
15,36,37
Amendment
Due Process and Equal Protection Clause of the 14th
15,36,37
Amendment..................................
Statutes:
Americans with Disabilities Act

12,13

7

PETITION FOR WRIT OF MANDAMUS
This case is an ideal vehicle for resolving a
question of first impression and as well as of
which
is
whether
importance,
national
requirements of Ringgold-Lockhart v. County of
Los Angeles, No. 11-57231 (9th Cir. 2014) and
Goolsby v Gonzalez, Case # ll-cv-00494-LJOGSA-PC, United States District Court for Eastern
District of California should be fulfilled before a
pre-filing order is entered against an individual.
OPINIONS BELOW
The Executive Committee’s Order is reproduced
at App-31-32and the Order Dismissing the Case #
20-cv-50133 is reproduced at App-34.
JURISDICTION
The jurisdiction of this Court is invoked under 28
U.S.C. 1651. The judgment of the Executive
Committee was entered on June 17, 2020. A Writ
of Mandamus is an order from a court to an inferior
government official ordering the government
official to properly fulfill their official duties or
correct an abuse of discretion. (See, e.g. Cheney v.
United States Dist. Court for D.C. (03-475) 542
U.S. 367 (2004) 334 F.3d 1096.)
STATEMENT OF THE CASE
School District Defendants in Case # 20-cv-50133
filed a Motion to have Petitioner declared a
vexatious litigant and enjoined from further
filings on June 3, 2020 (App-1-15). The Petitioner
filed his Response to the School District
Defendants’ Motion to have Petitioner declared a
vexatious litigant and enjoined from further
filings (App-16-27). Further Petitioner filed a
Supplemental Response to the School District
Defendants’ Motion to have Petitioner declared a

8

vexatious litigant and enjoined from further
filings (App-28-30).On June 17, 2020, the
Executive Committee entered an order placing
some restrictions on the Petitioner as described in
the order (App-31-32). There was neither a
hearing held in this matter nor the Executive
Committee stated they have considered
Petitioner’s Responses as described in App-16-27
and App-28-30.
The Executive Committee’s order in the pertinent
part states as follows as the reason for the entry
of the Executive Committee’s Order:
“Since February 22, 2016, pro se litigant Abdul
Mohammed has filed at least 14 cases in the
Northern District of Illinois. The cases have been
terminated for reasons such as Defendants’
motion for summary judgment, the case stayed
pending arbitration, plaintiffs motion to
voluntarily dismiss, failure to state a claim, lack
of subject matter jurisdiction, and frivolous
complaint, It is the judgment of the Executive
Committee that reasonable and necessary
restraints must be imposed upon Mr.
Mohammed’s ability to file new civil cases in this
District pro se. Cases in existence prior to the
entry of this order are not affected by this order
and shall proceed as usual”. See App-31-32 for the
complete Executive Committee’s Order.
The Executive Committee’s order does not state
the wrong done by the Petitioner.
In Goolsby v Gonzalez, Case # ll-cv-00494-LJOGSA-PC, United States District Court for Eastern
District of California ruled as follows:
“The Court reiterates that the focus is on the
number of suits that were frivolous or harassing
in nature rather than on the number of suits that

■"v

■■v

9

were simply adversely decided. See De Long, 912
F.2d at 1147-48. Even under California case law:
Any determination that a litigant is vexatious
must comport with the intent and spirit of the
vexatious litigant statute. The purpose of which is
to address the problem created by the persistent
and obsessive litigant who constantly has pending
a number of groundless actions and whose
conduct causes serious financial results to the
unfortunate objects of his or her attacks and
places an unreasonable burden on the courts.
Morton v. Wagner, 156 Cal.App.4th 963,
970-71 (Cal. App. 6 Dist. 2007). In
Plaintiffs cases cited by Defendant above, two
were
dismissed
for
failure
to
exhaust
administrative remedies. Such cases do not
demonstrate a malicious or vexatious intent of the
Plaintiff. Nor does losing an action at the
summary judgment phase, voluntarily dismissing
an action, or having a habeas petition denied,
demonstrate maliciousness or vexatiousness.
Defendant has failed to meet his burden in
demonstrating that Plaintiff is a vexatious
litigant. Since Defendant has failed to make a
threshold showing that Plaintiff has a pattern of
engaging in harassing litigation practices, the
Court declines to address Defendant’s argument
that Plaintiff is not likely to succeed on the merits.
(Doc. 31-1 at 13)”.
Now the Petitioner will dissect each of the 14 cases
cited by the Executive Committee as the reason
for punishing the Petitioner and for the entry of the
Executive Committee’s order.
1)
Case # 16-cv-2537 has been stayed due to
arbitration and the Petitioner does not know why

10

he was punished for filing this case. The Petitioner
paid the filing fees for this case.
2)
Case # 16-cv-5263 (Fifing Fee paid by the
Petitioner and voluntarily dismissed by the
Petitioner and this case does not demonstrate a
malicious or vexatious intent of the Petitioner
pursuant to Goolsby v Gonzalez, Case # 11-cv00494LJO-GSA-PC, United States District Court
for Eastern District of California).
3)
Case # 16-cv-5264 (Filing Fee paid by the
Petitioner and voluntarily dismissed by the
Petitioner and this case does not demonstrate a
malicious or vexatious intent of the Petitioner
pursuant to Goolsby v Gonzalez, Case # 11-cv00494LJO-GSA-PC, United States District Court
for Eastern District of California).
4)
Case # 16-cv-2470 (Fifing Fee paid by the
Petitioner and dismissed at the summary judgment
phase and this case does not demonstrate a
malicious or vexatious intent of the Petitioner
pursuant to Goolsby v Gonzalez, Case # 11-cv00494LJO-GSA-PC, United States District Court
for Eastern District of California).
5)
Case # 17-cv-5585 (Dismissed under the
In Forma Pauperis Statute without prejudice
because the Petitioner was not able to amend the
complaint due to lack of legal representation and
many of the claims from this case are pending in
Case # 20-cv-50133. Neither the Defendants were
served in this case nor filed an appearance in this
case and this case does not demonstrate a
malicious or vexatious intent of the Petitioner
pursuant to Goolsby v Gonzalez, Case # 11-cv00494LJO-GSA-PC, United States District Court
for Eastern District of California).

Vi

11

■■1

6)
Case # 16-cv-2538 (Filing Fee paid by the
Petitioner and voluntarily dismissed by the
Petitioner due to attorneys withdrawal because of
personal reasons and this case does not
demonstrate a malicious or vexatious intent of the
Petitioner pursuant to Goolsby v Gonzalez, Case #
ll-cv-00494LJO-GSA-PC, United States District
Court for Eastern District of California).
7)
Case # 18-cv-2638 (Dismissed under the
In Forma Pauperis Statute.
Neither the
Defendants were served in this case nor filed an
appearance in this case and this case does not
demonstrate a malicious or vexatious intent of the
Petitioner pursuant to Goolsby v Gonzalez, Case #
ll-cv-00494LJO-GSA-PC, United States District
Court for Eastern District of California).
8)
Case # 18-cv-4248 (Dismissed under the
In Forma Pauperis Statute.
Neither the
Defendants were served in this case nor filed an
appearance in this case and this case does not
demonstrate a malicious or vexatious intent of the
Petitioner pursuant to Goolsby v Gonzalez, Case #
ll-cv-00494LJO-GSA-PC, United States District
Court for Eastern District of California. The
Petitioner was not able to appeal this case because
the District Court and the Seventh Circuit denied
Petitioner’s IFP Application. The reasoning for
Judge Guzman for ruling this case as frivolous is
that the Petitioner filed his ADA claims to assert
subject matter jurisdiction in this court and Judge
Guzman’s reasoning cannot be any far from the
truth because the Petitioner does not want to file
any case in the District Court because of the
inconvenience of traveling from Naperville to
Chicago for appearances and the Petitioner cannot
be in District to appear at 9:00 AM because he

"i

12

drops his son to school in Naperville at 8:15 AM
and he cannot reach the District Court for a 9:00
AM appearance as it takes at least 90 minutes to
reach the District Court in the morning rush hour.
The Petitioner has argued in his Motion to Remand
in Case # 18-cv-8393 that it is inconvenient for
him to travel from Naperville to Chicago for
appearances in District Court because he drops
his son to school in Naperville at 8:15 AM and it
will be impossible for him to reach the District
Court for a 9:00 AM appearance because it takes
at least 90 minutes to reach the District Court in
the morning rush. Further, the Petitioner has filed
ADA claims in State Court, and he has no reason
to file a case in District Court just to assert subject
matter jurisdiction for his ADA claims in the
District Court.).
Case # 17-cv-9371(Voluntarily dismissed
9)
by the Petitioner because this case was transferred
to Federal Court in California as part of MultiDistrict Litigation. Petitioner dismissed this case
because he lives in Illinois and he cannot
represent himself in this case in Federal Court in
California and this case does not demonstrate a
malicious or vexatious intent of the Petitioner
pursuant to Goolsby v Gonzalez, Case # 11-cv00494LJO-GSA-PC, United States District Court
for Eastern District of California).
10) Case # 18-cv-2503 (Dismissed as
insufficiently pled and this case does not
demonstrate a malicious or vexatious intent of the
Petitioner pursuant to Goolsby v Gonzalez, Case #
ll-cv-00494LJO-GSA-PC, United States District
Court for Eastern District of California).
11) Case # 18-cv-8393 (This case was
originally filed by the Petitioner in DuPage County
"i

13

Circuit Court (Case # 18-L-1312) and the
Defendants removed the Case # 18-L-1312 from
DuPage County Circuit Court over the objection
of the Petitioner. In short, the Petitioner did not file
the Case # 18-cv-8393 in this court and hence this
case neither be considered as filed by the Petitioner
in the district court not does it demonstrate a
malicious or vexatious intent of the Petitioner
pursuant to Goolsby v Gonzalez, Case # 11-cv00494LJO-GSA-PC, United States District Court
for Eastern District of California. The appeal for
this case is pending in the 7th Circuit).
12) Case # 19-cv-6525 (This case was
originally filed by the Petitioner in Kane County
Circuit Court (Case # 19-L-419) and the
Defendants removed the Case # 19-L-419 from
Kane County Circuit Court. In short, the Petitioner
did not file the Case # 19-cv-6525 in this court and
hence this neither be considered as filed by the
Petitioner in this court not does it demonstrate a
malicious or vexatious intent of the Petitioner
pursuant to Goolsby u Gonzalez, Case # 11-cv00494LJO-GSA-PC, United States District Court
for Eastern District of California. This case is
pending in this court in front of Judge
Feinerman).
13) Case # 20-cv-50133 (This case was filed
by the Petitioner in this court and it was
dismissed under Rule 8(a) by Judge Blakey).
Pursuant to Goolsby v Gonzalez the Petitioner has
done nothing wrong and the Executive
Committee’s order also does not state that the
Plaintiff has done something wrong.

14

In Ringgold-Lockhart v. County of Los Angeles,
No. 11-57231 (9th Cir. 2014), the 9th Circuit ruled
as follows:
“Restricting access to the courts is, however, a
serious matter. “[T]he right of access to the courts
is a fundamental right protected by the
Constitution.” Delew v. Wagner, 143 F.3d 1219,
1222 (9th Cir. 1998). The First Amendment “right
of the people ... to petition the Government for a
redress of grievances,” which secures the right to
access the courts, has been termed “one of the
most precious of the liberties safeguarded by the
Bill of Rights.” BE & K Const. Co. u. NLRB, 536
U.S. 516, 524—25 (2002) (internal quotation marks
omitted, alteration in original); see also
Christopher v. Harbury, 536 U.S. 403, 415 n.12
(2002) (noting that the Supreme Court has located
the court access right in the Privileges and
Immunities Clause, the First Amendment
petition clause, the Fifth Amendment due process
clause, and the Fourteenth Amendment equal
protection clause). Profligate use of pre-filing
orders could infringe this important right, Molski
v. Evergreen Dynasty Corp., 500 F.3d 1047, 1057
(9th Cir. 2007) (per curiam), as the pre-clearance
requirement imposes a substantial burden on the
free-access guarantee. “Among all other citizens,
[the vexatious litigant] is to be restricted in his
right of access to the courts. We cannot predict
what harm might come to him as a result, and he
should not be forced to predict it either. What he
does know is that a Sword of Damocles hangs over
his hopes for federal access for the foreseeable
future.” Moy v. United States, 906 F.2d 467, 470
(9th Cir. 1990). Out of regard for the constitutional
underpinnings of the right to court access, “pre­
filing orders should rarely be filed,” and only if

15

courts comply with certain procedural and
substantive requirements. De Long, 912 F.2d at
1147. When district courts seek to impose pre­
filing restrictions, they must: (1) give litigants
notice and “an opportunity to oppose the order
before it [is] entered”; (2) compile an adequate
record for appellate review, including “a listing of
all the cases and motions that led the district
court to conclude that a vexatious litigant order
was needed”; (3) make substantive findings of
frivolousness or harassment; and (4) tailor the
order narrowly so as “to closely fit the specific vice
encountered.” Id. at 1147-48. The first and second
of these requirements are procedural, while the
are substantive
“latter two factors . .
considerations . . . [that] help the district court
define who is, in fact, a ‘vexatious litigant’ and
construct a remedy that will stop the litigant’s
abusive behavior while not unduly infringing the
litigant’s right to access the courts.” Molski,500
F.3d at 1058. In “applying the two substantive
factors,” we have held that a separate set of
considerations employed by the Second Circuit
Court of Appeals “provides a helpful framework.”
Id. The Second Circuit considers the following five
substantive factors to determine “whether a party
is a vexatious litigant and whether a pre-filing
order will stop the vexatious litigation or if other
sanctions are adequate”: (1) the litigant’s history
of litigation and in particular whether it entailed
vexatious, harassing or duplicative lawsuits; (2)
the litigant’s motive in pursuing the litigation,
e.g., does the litigant have an objective good faith
expectation of prevailing?; (3) whether the litigant
is represented by counsel; (4) whether the litigant
has caused needless expense to other parties or
has posed an unnecessary burden on the courts

■:)

16

and their personnel; and (5) whether other
sanctions would be adequate to protect the courts
and other parties. Id. (quoting Safir v. U.S. Lines,
Inc., 792 F.2d 19, 24 (2d Cir.1986)). The final
consideration — whether other remedies “would
be adequate to protect the courts and other
parties” is particularly important. See Cromer v.
Kraft Foods N. Am., Inc., 390 F.3d 812, 818 (4th
Cir. 2004). In light of the seriousness of restricting
litigants’ access to the courts, pre-filing orders
should be a remedy of last resort. We review the
district court’s compliance with these procedural
and substantive standards for an abuse of
discretion. The Ringgolds’ contention that filing a
notice of appeal divested the district court of
jurisdiction to issue the vexatious litigant order is
without merit, “A district court retains
jurisdiction to enforce the judgments it enters,”
including through issuance of vexatious litigant
orders. Wood v. Santa Barbara Chamber of
Commerce, Inc., 705 F.2d 1515, 1524 (9th
Cir. 1983). We have jurisdiction over the
Ringgolds’ appeal of the district court’s order
under 28 U.S.C. § 1291. Molski, 500 F.3d at 1054.
We may exercise this jurisdiction even absent an
indication that the Ringgolds have already been
denied access to the court because of the district
court’s order. De Long, 912 F.2d at 1146 n.2; Moy,
906 F.2d at 470. Relying on Molski, 500 F.3d at
1056, the Ringgolds maintain that we may not
consider the arguments given or briefs filed by
appellees who were not parties to the vexatious
litigant order, which was entered sua sponte by
the district court. In Molski, however, we
dismissed appellees on their own motion, because
those particular appellees had no interest in
litigating the vexatious litigant order, as

’i

17

evidenced by their motion seeking to be dismissed
from the appeal. Id. Here, although it was the
district court that initiated the vexatious litigant
order at issue, there is a substantial likehhood
that the Ringgolds will name these appellees in
future lawsuits. Appellees, therefore, have “a
cognizable interest in the outcome of’ this appeal;
there is no cause to dismiss them from this appeal,
and we may consider their arguments. Id.
(quoting H.C. v. Koppel, 203 F.3d 610, 612 (9th Cir.
2000)). Molski, 500 F.3d at 1056.
A. Notice and Opportunity to be Heard
The district court entered a tentative ruling
declaring the Ringgolds vexatious litigants on
November 7, 2011. At that time, the district court
notified the Ringgolds that it was considering “all
of the complaints and motions filed in this court,
as well as the various appeals and writs of
certiorari,” and “a number of state court decisions
that ultimately led to Plaintiff Ringgold being
declared a vexatious litigant.” Its tentative order
gave the Ringgolds two weeks to argue against a
final order and set the matter for a hearing. The
Ringgolds filed a brief opposing the vexatious
litigant designation and attached declarations
from both Ringgold and Ringgold-Lockhart. The
court heard oral argument from the Ringgolds
before it entered the vexatious litigant order. In
sum, the district court provided proper notice and
an opportunity to be heard, in accordance with our
case law’s first procedural requirement and due
process. See Molski, 500 F.3d at 1058.
B. Adequate Record for Review
“An adequate record for review should include a
listing of all the cases and motions that led the
district court to conclude that a vexatious litigant
order was needed.” De Long, 912 F.2d at 1147. In

18

'1

Molski, we held that a district court compiled a
proper record for review where “[t]he record
before the district court contained a complete list
of the cases filed by Molski in the Central District
of California, along with the complaints from
many of those cases,” and where “[a]lthough the
district court’s decision entering the pre-filing
order did not list every case filed by Molski, it did
outline and discuss many of them.” 500 F.3d at
1059. We conclude that the district court compiled
an adequate record to permit us to review the
basis of its order. The district court discussed and
explained the litigation history leading to its
order, and appended a list of twenty-one district
court filings, including motions that it viewed as
supporting its order. In the body of the order, the
court cited the Ringgolds’ prior federal suit, which
“featured a 110-page first amend[ed] complaint
with sixteen causes of action and named at least
twelve defendants, including a number of officials
with the County of Los Angeles, the Superior
Court of Los Angeles County and various judges.”
The court also cited the present case, which
“featured a 31-page complaint with eleven causes
of action and . . . named the County of Los
Angeles, as well as other county and state
officials, including Governor Jerry Brown and
Secretary of State Kamala Harris.” In addition,
the district court (1) noted the Ringgolds’ state
court litigation, which it described as “even more
extensive—and frivolous;” and (2) cited to the
California Court of Appeal’s decision in Sankary,
2009 WL 386969, which held Ringgold was a
vexatious htigant pursuant to California Code of
Civil Procedure section 391(b)(3) and imposed a
pre-fihng restriction against her. Sankary
outlined Ringgold’s history of fighting her

19

removal as trustee through state court litigation.3
2009 WL 386969 at *3. The California Court of
Appeal explained that it held Ringgold vexatious
because she “repeatedly filed meritless papers [in
that court] and in the probate court which
frivolously assert she need not obey an order [to
turn over documents belonging to the Trust]
which has caused unnecessary delay and
expense.” Id. at *2. Together, the list of federal
cases, allegedly baseless motions, and the district
court’s reference to the California Court of
Appeal’s reasoned decision in the Sankary case,
provide an adequate record for this Court to
review the merits of the district court’s order. We,
therefore, conclude that the order comports with
the procedural requirements outhned in De Long.
As will be explained, it is the substance of the
court’s injunction and its breadth that concern us.
C. Substantive Findings of Frivolousness or
Harassment
“[B]efore a district court issues a pre-filing
injunction... .it is incumbent on the court to make
‘substantive findings as to the frivolous or
harassing nature of the litigant’s actions.’” De
Long, 912 F.2d at 1148 (quoting In re Powell, 851
F.2d 427, 431 (D.C. Cir. 1988) (per curiam)). To
determine whether the litigation is frivolous,
district courts must “look at ‘both the number and
content of the filings as indicia’ of the
frivolousness of the litigant’s claims.” Id. (quoting
same). While we have not established a numerical
definition for frivolousness, we have said that
“even if [a litigant’s] petition is frivolous, the court
[must] make a finding that the number of
complaints was inordinate.” Id. Litigiousness
alone is not enough, either: “‘The plaintiffs claims

20

must not only be numerous, but also be patently
without merit.’” Molski, 500 F.3d at 1059 (quoting
Moy, 906 F.2d at 470). As an alternative to
frivolousness, the district court may make an
alternative finding that the htigant’s filings “show
a pattern of harassment” De Long, 912 F.3d at
1148. However, courts must “be careful not to
conclude that particular types of actions filed
repetitiously are harassing,” and must “[i]nstead .
. . ‘discern whether the filing of several similar
types of actions constitutes an intent to harass the
defendant or the court.’” Id. at 1148 n.3 (quoting
Powell,851 F.2d at 431). Finally, courts should
consider whether other, less restrictive options,
are adequate to protect the court and parties. See
Molski, 500 F.3d at 1058; Cromer, 390 F.3d at 818;
Safir, 792 F.2d at 24. Here, the district court
found the Ringgolds vexatious primarily on the
basis of the current case and an earlier federal
case. As an initial matter, two cases is far fewer
than what other courts have found “inordinate.”
See, e.g., Molski, 500 F.3d at 1060 (roughly 400
similar cases); Wood v. Santa Barbara Chamber
of Commerce, Inc., 705 F.2d 1515, 1523,1526 (9th
Cir. 1983) (thirty-five actions filed in 30
jurisdictions); In re Oliver, 682 F.2d 443, 444 (3d
Cir. 1982) (more than fifty frivolous cases); In re
Green, 669 F.2d 779,781 (D.C. Cir. 1981) (per
curiam) (between 600 and 700 complaints). The
district court also cites the Ringgolds’ motions
practice, taking issue with their “numerous
motions to vacate prior decisions or relief from
judgment.” But examination of the court’s list of
“baseless motions” reveals that this description is
not entirely accurate. For example, the district
court granted one of the motions. A successful
motion is neither “baseless” nor “frivolous.” The

')

21

list also includes motions, accompanied by
medical records, that Ringgold filed requesting a
medical accommodation in the briefing schedule
— also not frivolous. And the hst includes a joint
motion to stipulate to a change in the briefing
schedule. Again, not frivolous. Most troubling, the
district court’s list includes the Ringgolds’
response to its tentative order finding them
vexatious. As explained, the Ringgolds had a due
process right to be heard on this matter. The
district court faults the Ringgolds for “reiterating
old facts and arguments” in their response to the
court order. As the Ringgolds had to argue that
their filings were not frivolous, such repetition
was inevitable. What’s more, the district court
invited their response, so it is particularly
inappropriate to hold it against them. Whether a
litigant’s motions practice in two cases could ever
be so vexatious as to justify imposing a pre-filing
order against a person, we do not now decide.
Such a situation would at least be extremely
unusual, in light of the alternative remedies
available to district judges to control a htigant’s
behavior in individual cases”.
In the instant case, there was no hearing held,
there is no adequate record for the review other
than the Executive Committee’s statement in the
order that the Petitioner filed 14 cases in this
court, the committee did not ask the Petitioner to
file a response to the School District Defendants’
Vexatious Litigant Motion, Executive Committee
did not consider Petitioner’s Responses, there was
no substantive finding of frivolousness or
harassment and the Executive Committee’s Order
is not narrowly tailored, which are requirements
for a pre-filing restriction order pursuant to
Ringgold-Lockhart.

22

In face of Executive Committee’s actions as
described above, it is clear that the Executive
Committee entered the Executive Committee
order based on some extra-judicial source and that
extra-judicial source is the Plaintiffs criticism of
white judges and white attorneys as described in
App-16-27 and App-28-30 and Judge Feinerman’s,
Judge Alonso’s, Judge Gettleman’s, Judge
Guzman’s, Chief Judge Pallmeyer’s and Members
of Executive Committee’s prejudice against the
Petitioner based on his race, color, religion,
disabilities, national origin, citizenship, gender,
etc. and bias in favor of white Defendants and
white attorneys in cases involving the Petitioner.
“Findings by a trial judge unsupported by the
record are evidence that the judge has relied on
extrajudicial
sources
in
making
such
determinations indicating personal bias and
prejudice”. Peacock Records, Inc. v. Checker
Records, Inc., 430 F.2d 85, 89 (7th Cir. 1970). The
Executive Committee’s order is not only void ab
initio for reasons as described above, pursuant to
Ringgold-Lockhart and pursuant to Goolsby v
Gonsalves but it is derived from extra-judicial
sources. Further, the Executive Committee
punished the Petitioner by entering the Executive
Committee order just because the Petitioner was
party to Case # 18-cv-8393 and Case # 19-cv-6525
which the Petitioner did not even file in the
district court. Further, the Executive Committee
punished the Petitioner by entering the Executive
Committee order just because the Case # 16-cv2537 has been stayed due to arbitration. Further,
the Executive Committee punished the Petitioner
by entering the Executive Committee order just
because the Case # 17-cv-9371 was transferred to
California as part of a Multi-Party Litigation.

23

Further, the Executive Committee punished the
Petitioner by entering the Executive Committee
order based on the pending cases. Due to the
prejudice against the Petitioner based on his race,
color, religion, disabilities, national origin,
citizenship, gender, etc. and bias in favor of white
Defendants and white attorneys in cases
involving the Petitioner, Judge Feinerman, Judge
Alonso, Judge Gettleman, Judge Guzman, Chief
Judge Pallmeyer and Members of Executive
Committee were disqualified from the ruling on
the matter of the Executive Committee’s Order.
Even though the Executive Committee’s order
states that the judges who are presiding active
cases involving the Petitioner have recused
themselves from the matter of the Executive
Committee’s order, the Petitioner believes it is a
big lie. The Executive Committee’s order was
entered in retaliation against the Petitioner for
suing white people and for criticizing white judges
and attorneys. If the Petitioner is criticizing
certain white people that does not mean the
Petitioner has a prejudice against every white
person on this earth. There are thousands of white
people on the streets of the United States
protesting against white police officers in
response to George Floyd’s murder. Further, the
Petitioner has filed thousands of pages of
pleadings against the people of his own race, color,
religion, national origin, citizenship, gender, etc.
Plaintiff has filed actions and criticized people
who have wronged him regardless of their race,
color, religion, national origin, citizenship,
gender, etc.
Further Judge Feinerman, Judge Alonso, Judge
Gettleman, Judge Guzman, Chief Judge
Pallmeyer and Members of Executive Committee

24

has used the Petitioner as their slave and as their
property and has inflicted physical and mental
injuries upon their slave (the Petitioner)
whenever they felt like to inflict physical and
mental injuries upon their slave (the Petitioner)
due to their prejudice against the Petitioner based
on his race, color, religion, disabilities, national
origin, citizenship, gender, etc. and their bias in
favor of white Defendants and white attorneys in
cases involving the Petitioner.
Further Ringgold-Lockhart the 9th Circuit ruled
as follows:
“There is, however, no indication that RinggoldLockhart was a party to the state court litigation,
so the state court litigation does not support
finding him vexatious and imposing a pre-filing
restriction against him. Aside from the district
court’s failure to consider alternative sanctions
before issuing this injunction, it was also error to
issue an order against Ringgold-Lockhart on the
basis of state litigation in which he played no
part”.
Further Ringgold-Lockhart the 9th Circuit ruled
as follows:
“The district court also erred by holding
Ringgold’s state litigation against RinggoldLockhart, without a record indicating that he
participated in that litigation”.
Just like the 9th Circuit’s holding in RinggoldLockhart as described above, Executive
Committee’s order based on Case # 18-cv-8393
and Case # 19-cv-6525 was an error because the
Petitioner played no part in the filing of the Case
# 18-CV-8393 and Case # 19-cv-6525 in the district
court and fact it is the Defendants who filed Case
# 18-cv-8393 and Case # 19-cv-6525 in the district

25

court after removing those cases from the state
courts and the Executive Order also does not
indicate that Petitioner played any part in the
filing of the Case # 18-CV-8393 and Case # 19-cv6525 in the district court. Further, the Executive
Committee’s order based on Case # 16-cv-2537
which has been stayed due to arbitration and the
Case # 17-cv-9371 which was transferred to
California as a Multi-Party Litigation, was an
error and the Executive Committee order does not
even indicate what wrong the Petitioner has done
in relation to Case # 16-cv-2537 and Case # 17-cv9371.
Further Ringgold-Lockhart the 9th Circuit ruled
as follows:
Finally, pre-filing orders “must be narrowly
tailored to the vexatious litigant’s wrongful
behavior.” Molski, 500 F.3d at 1061. In Molski, we
approved the scope of an order because it
prevented the plaintiff from filing “only the type
of claims Molski had been filing vexatiously,” and
“because it will not deny Molski access to courts
on any . . . claim that is not frivolous.” Id. Here,
the scope of the order is too broad in several
respects. First, it provides that the court “will
approve all filings that it deems to be meritorious,
not duplicative, and not frivolous.” The screening
order should have stopped at “not duplicative, and
not frivolous.” By providing that the court will not
allow a new action to be initiated unless the court
deems the action “meritorious,” the district court
added a screening criteria that is not narrowly
tailored to the problem before it, and is
unworkable. It is one thing for courts at an early
stage of litigation to filter out frivolous suits.
Courts routinely perform this task, as the Rules of
Civil Procedure prohibit frivolous filings. See Fed.

26

R. Civ. P. 11(b). But courts cannot properly say
whether a suit is “meritorious” from pleadings
alone. A lawsuit need not be meritorious to
proceed past the motion-to-dismiss stage; to the
contrary, “a well-pleaded complaint may proceed
even if it strikes a savvy judge that actual proof of
those facts is improbable, and that recovery is
very remote and unlikely.” Bell Atl. Corp. u.
Twombly, 550 U.S. 544, 556 (2007) (internal
quotation marks omitted). And even as to the
propriety of a Rule 12(b)(6) dismissal, whether a
case merits dismissal for failure to state a claim is
often determinable only after briefing and
argument; it is often not a decision accurately to
be made at a pre-filing stage. Because this pre­
filing order requires that only “meritorious” cases
survive the court’s screening, the order is not
narrowly tailored to address the concern that the
Ringgolds will continue to pursue frivolous
litigation. Second, the pre-filing restriction
extends to “any action that relates to the Aubry
Revocable Family Trust or the administration of
state courts or probate courts.” The part of this
order that bars the Ringgolds from litigating any
action “relating] to . .. the administration of state
courts or probate courts” is expansive. The district
court has not shown that this breadth is justified.
In the underlying case, the Ringgolds challenged
the remuneration structure of California state
courts. But the pre-filing order goes well beyond
remuneration issues; it covers all administrative
matters regarding all state courts. Moreover,
“administration” is an indefinite term open to
broad interpretation, both by the district court
and, prophylactically, by the Ringgolds. This
overbreadth presents “the danger” that it “will
leave [litigants] uncertain as to what [they] may

27

or may not do without” running afoul of the court’s
order, Wood, 705 F.2d at 1525, unduly chilling
their right to free access to the courts. This portion
of the order could also extend to factual scenarios
entirely unrelated to the dispute relating to the
Trust. Yet, the district court cites the Trust
dispute as the root of the problem with the
Ringgolds’ litigation, characterizing the litigation
as “essentially no more than an attempt to
challenge the determination to remove Plaintiff
Ringgold as temporary trustee of the Aubry
Family Trust.” Sometimes a rancorous dispute
leaves a person with a bitter taste that does not
fade, no matter how many resources are expended
and no matter how many years pass. From our
review of the case law discussing vexatious
litigants, it is not uncommon for district courts to
enjoin litigants from relitigating a particular case,
such as when a litigant refuses to accept the
finality of an adverse judgment. See, e.g., Safir,
792 F.2d at 25; Cook v. Peter Kiewit Sons Co., 775
F.2d 1030, 1033 (9th Cir. 1985); Wood, 705 F.2d at
1525. But in such cases, courts generally tailor the
scope of a litigation restriction so as to restrain
litigants from “reopen [ing] litigation based on the
facts and issues decided in” previous lawsuits.
Wood, 705 F.2d at 1526; see Safir, 792 F.2d at 25;
Cook, 775 F.2d at 1033. The underlying litigation
here attempts to reopen a case that has reached
final judgment. “A narrowly tailored injunction . .
. would address only filings in that or related
actions.” Cromer, 390 F.3d at 819. In sum, we see
no reason why the district court could not have
accomplished its goal of stemming the tide of the
Ringgolds’ litigation relating to the Aubry Family
Trust without also enjoining the Ringgolds from
bringing suits “relat[ing] to ... the administration

28

of state courts or probate courts.” We therefore
conclude that the injunction is overbroad.
In the instant case, the Executive Committee’s
order was not narrowly tailored as required by the
9th Circuit in Ringgold-Lockhart which is
described
above because
the Executive
Executive
“The
Committee’s order ruled,
Committee will examine any complaints
submitted by or on behalf of Mr. Mohammed to
determine whether they should be filed” which
means that the Executive Committee will even
screen and dismiss Petitioner’s complaints which
do not seem to be meritorious at the initial
pleading stage is contrary to the 9th Circuit’s
holding in Ringgold-Lockhart as described above
in and because the Executive Committee’s order
ruled that it will even screen complaints filed by
an attorney on behalf of the Petitioner.
Further Executive Committee’s order is flawed
again because it ruled, “IT IS FURTHER
ORDERED That any new complaints filed by Mr.
Mohammed and transferred to this Court from
another jurisdiction shall be reviewed by the
Executive Committee to determine whether they
should be filed” as the district court has no
jurisdiction whatsoever to screen complaints not
filed in the district court but filed in other district
courts and state courts.
Further, the Executive Committee’s order in the
pertinent part states, “It is the judgment of the
Executive Committee that reasonable and
necessary restraints must be imposed upon Mr.
Mohammed’s ability to file new civil cases in this
District pro se. Cases in existence prior to the
entry of this order are not affected by this order
and shall proceed as usual”.

29

In violation of the Executive Committee’s order,
the Executive Committee has disabled the
Petitioner’s ECF account and he is not able to file
documents in his existing cases though ECF and
there is no reason why Judge Feinerman, Judge
Alonso, Judge Gettleman, Judge Guzman, Chief
Judge Pallmeyer and Members of Executive
Committee should not be held in contempt of the
court. The disabling of the Petitioner’s ECF
account further demonstrates Judge Feinerman’s,
Judge Alonso’s, Judge Gettleman’s, Judge
Guzman’s, Chief Judge Pallmeyer’s and Executive
Committee’s intent to punish the Petitioner due to
their prejudice against the Petitioner based on his
race, color, religion, disabilities, national origin,
citizenship, gender, etc. and their bias in favor of
white Defendants and white attorneys in cases
involving the Petitioner. Further, the Executive
Committee has not ruled on the Petitioner’s
Motion for Sanctions against the School District
Defendants for fraud upon the court as described
in App-16-27.
DISMISSAL OF CASE # 20-cv-50133
Petitioner filed Case # 20-cv-50133 on April 16,
2020, and after that, he amended the original
complaint five times without leave from the court
because the Petitioner thought he can amend his
original complaint without leave of the court
before the Defendants file their response. The
petitioner filed his Fifth Amended Complaint in
Case # 20-cv-50133 on May 17, 2020. On May 18,
2020, the court entered an order which states in
pertinent part as follows:
Once Plaintiffs fee status is resolved, the Court
will screen his complaint (the initial complaint

i

30

r

and most recent amended complaint) to determine
whether this case may proceed. See 28 U.S.C. §
1915A. Plaintiffs first, second, third, and fourth
amended complaints [6], [7], [15], [39], are
stricken as they are not permitted under Rule 15
and needlessly complicate this Court’s initial
review of Plaintiffs allegations and potential
claims. Plaintiffs motion to compel [37] also is
stricken as it is premature. Finally, the Court
strikes its prior order [38]; Defendants need not
respond to any pending motion or complaint at
this time. Mailed notice (gel,)”. (App-33)
On May 18, 2020, the Petitioner paid a filing fee
for the Case # 20-cv-50133 and provide the proof
of payment of the filing to the court and also
informed the court that he is not a prisoner and
28 U.S.C. § 1915A only applies to the Prisoner and
the court has no subject matter jurisdiction to
screen the Petitioner’s complaint in Case # 20-cv50133 under 28 U.S.C. § 1915A because the
Petitioner is not a prisoner. Petitioner heard
nothing from the court in response to his
pleadings in which he stated that he is not a
prisoner and 28 U.S.C. § 1915A only applies to the
Prisoner and the court has no subject matter
jurisdiction to screen the Petitioner’s complaint in
Case # 20-cv-50133 under 28 U.S.C. § 1915A until
July 14, 2020. On July 14, 2020, the Petitioner
came to know that his Case # 20-cv-50133 has
been dismissed by the court on July 10, 2020, and
the order which dismissed Case # 20-cv-50133
stated in the pertinent part as follows:
“MINUTE entry before the Honorable John
Robert Blakey: Plaintiffs fifth amended
complaint [40], which clocks in at 1,125 pages
(with an additional 2,852 pages of exhibits),

31

names more than 30 defendants, and asserts more
than 63 counts (some with numerous subparts
and arguments), constitutes “an egregious
violation of Rule 8(a)” and is, accordingly,
dismissed. Vicom, Inc. v. Harbridge Merchant
Services, Inc., 20 F.3d 771, 775-76 (7th Cir. 1994).
Additionally, in light of Plaintiffs prior filings and
his willful conduct in violating court orders, the
record confirms that leave to replead will not
produce an improved sixth amended complaint
(indeed, his most recent complaint is the longest
yet, and the Court still cannot detect a viable
federal claim); and thus, the most recent
complaint is dismissed with prejudice, and this
case is dismissed. See Vicom, 20 F.3d at 776
(noting that complaint should have been
dismissed without leave to replead); Davis v. Ruby
Foods, Inc., 269 F.3d 818, 821 (7th Cir.
2001)(noting that dismissal of a 600-paragraph,
240-page complaint was appropriate under Rule
8); Crenshaw v. Antokol, 206 F. App’x 560, 563 (7th
Cir. 2006) (the dismissal of a complaint on the
ground that it is unintelligible and fails to give the
defendant the notice to which it is entitled is
“unexceptionable”). (App-34)
First Judge Blakey tried to dismiss the
Petitioner’s under 28 U.S.C. § 1915A but when the
Petitioner informed him that he is not a prisoner
and 28 U.S.C. § 1915A only applies to a prisoner,
Judge Blakey came up with another pretext and
dismissed the Petitioner’s complaint under Rule 8
(a). The only vague reason Judge Blakey gave for
the dismissal of Case # 20-cv-50133 is that the
Petitioner’s Fifth Amended Complaint is
egregious violation Rule 8(a). Judge Blakey
cited Davis v. Ruby Foods, Inc. in dismissing the

32

Case # 20-cv-50133 but the 7th Circuit ruled as
follows in Davis v. Ruby Foods, Inc:
"The question we must decide, therefore —
surprisingly one of first impression in this circuit
— is whether a district court is authorized to
dismiss a complaint merely because it contains
repetitious and irrelevant matter, a disposable
husk around a core of proper pleading. As our use
of the word “disposable” implies, we think not, and
therefore that it is an abuse of discretion (the
normal standard applied to decisions relating to
the management of litigation, and the one by
which dismissals for violation of Rule 8 are
reviewed, Kittay v.Kornstein, 230 F.3d 531, 541
(2d Cir. 2000); In re Westinghouse Securities
Litigation, 90 F.3d 696, 702 (3d Cir. 1996); Kuehl
v. FDIC, 8 F.3d 905, 908 (1st Cir. 1993); Mangan
v. Weinberger, 848 F.2d 909, 911 (8th Cir. 1988)) to
dismiss a complaint merely because of the
presence of superfluous matter. That would cast
district judges in the role of editors, screening
complaints for brevity and focus; they have better
things to do with their time. In our many years of
judging, moreover, we cannot recall many
complaints that actually met the standard of
chaste, Doric simplicity implied by Rule 8, and the
model complaints in the Forms Appendix. Many
lawyers strongly believe that a complaint should
be comprehensive rather than brief and therefore
cryptic. They think the more comprehensive
pleading assists the judge in understanding the
case and provides a firmer basis for settlement
negotiations. This judgment by the bar has been
accepted to the extent that complaints signed by
a lawyer are never dismissed simply because they
are not short, concise, and plain”.” Signed by a

33

lawyer . .
But of course, Mr. Davis is not a
lawyer, and so his complaint violates
those commands with a baroque exuberance that
sets it apart from lawyers’ drafting excesses. But
the complaint contains everything that Rule 8
requires it to contain, and we cannot see what
harm is done anyone by the fact that it contains
more. Although the defendant would have been
the
striking
order
an
entitled
to
complaint,
from
the
irrelevant material
Fed.R.Civ.P. 12(f), we doubt that it would have
sought such an order, unless for purposes of
harassment, because the extraneous allegations,
for example, that Davis is an FBI informant,
cannot harm the defense. They are entirely
ignorable. Excess burden was created in this case
not by the excesses of Davis’s complaint but by the
action of the defendant in moving to dismiss the
complaint and the action of the district court in
granting that motion. The dismissal of a
complaint on the ground that it is unintelligible is
unexceptionable. Salahuddin v. Cuomo, 861 F.2d
40, 42 (2d Cir. 1988). Such a complaint fails to give
the defendant the notice to which he is
entitled. Dismissal followed by the filing of a new
complaint may actually be a better response than
ordering the plaintiff to file a more definite
statement of his claim, Fed.R.Civ.P. 12(e), which
results in two documents, the complaint and the
more definite statement, rather than one
compliant document. But when the complaint
*821 adequately performs the notice function
prescribed for complaints by the civil rules, the
presence of extraneous matter does not warrant
dismissal. “Fat in a complaint can be
ignored.” Bennett v. Schmidt, 153 F.3d 516,
517 (7th Cir. 1998). “If the [trial] court understood

34

the allegations sufficiently to determine that they
could state a claim for rehef, the complaint has
satisfied Rule 8.” Kittay v. Kornstein, supra, 230
F.3d at 541. “Were plaintiffs’ confessed
overdrafting their only sin, we would be inclined
to agree that dismissal was an overly harsh
penalty.” Kuehl u. FDIC, supra, 8 F.3d at 908. See
also Simmons v. Abruzzo, 49 F.3d 83, 87 (2d
Cir.1995). Indeed, the punishment should be
fitted to the crime, here only faintly blameworthy
and entirely harmless. To the principle that the
mere presence of extraneous matter does not
warrant dismissal of a complaint under Rule 8, as
to most generalizations about the law, there are
exceptions. We can hardly fault the Third Circuit
for dismissing the complaint in In re
Westinghouse Securities Litigation, supra, 90 F.3d
at 703, which contained 600 paragraphs spanning
240 pages. See also Michaelis v. Nebraska State
Bar Ass’n, 111 F.2d 437, 439 (8th Cir. 1983). Have
a heart! But Davis’s complaint does not fall within
any exception that we can think of to the principle
sketched in Bennett and here repeated and
elaborated”. Judge Blakey’s order which states
that in Westinghouse Securities Litigation the
complaint was dismissed because it was 600
paragraphs spanning 240 pages is incorrect and
misleading
because
the
complaint
in
Westinghouse Securities Litigation was dismissed
because it was unnecessarily complicated,
verbose, and rambling. Further Judge Blakey's
order states that the Fifth Amended Complaint is
1,125 pages long and Exhibits are 2,852 pages is
incorrect and misleading. The Fifth Amended
Complaint is 558 pages long and the file in which
the Petitioner submitted the Fifth Amended
Complaint is 1,125. Page 559 to Page 1,125 are

35

Exhibits. The Judge who has made the length of
the complaint as an issue for dismissal of Fifth
Amended Complaint under Rule (8), he himself
does not know how many pages long the Fifth
Amended Complaint is and how many pages of
Exhibits are included with the complaint. A Judge
who cannot even differentiate the complaint and
the Exhibits have never been heard off before.
That means Judge Blakey has not even read the
Fifth Amendment Complaint. He just looked at
the filing stamp on top of the Fifth Amended
Complaint which shows the file consists of 1,125
pages which includes 558 pages of the Fifth
Amended Complaint and 567 pages of
Exhibits. Further in Vibe Micro, Inc.
v.
Shabanets, the 11th Circuit ruled, "In the
repleading order, the district court should explain
how the offending pleading violates the shotgun
pleading rule so that the party may properly avoid
future shotgun pleadings. In the instant case,
Judge Blakey did not explain how the offending
pleading violates the shotgun pleading rule so
that the party may properly avoid future
shotgun pleadings and none of the complaints
were filed after the court ruled that the complaint
violates Rule 8(a). All the complaints in Case # 20cv-50133 were filed before the court ruled that the
complaint violated 8 (a).
REASONS FOR GRANTING THE PETITION
In face of the arguments made above Executive
Committee’s Order offends Ringgold-Lockhart
and Goolsby and in addition, the Executive
Committee’s Order was entered in violation of the
Petitioner’s 1st Amendment Right to Petition the
government, 5th and 14th Amendment Rights to
Due Process and Equal Protection because there

36

was no Notice and Opportunity to be Heard
and no hearing was held, because there is no
Adequate Record for Review, because there is
no Substantive Findings of Frivolousness or
Harassment, because the Executive Committee’s
Order was not Narrowly Tailored, because the
Executive Committee’s Order usurped matters
upon which it has no jurisdiction whatsoever
(Plaintiffs complaints filed in State Court and
other District Courts), because the Executive
Committee itself is violating the Executive
Committee’s Order and because the Executive
Committee’s Order was entered in response to
Case # 18-cv-8393 and 19-cv-6525 which the
Petitioner did not even filed in the district court
as described above. The Executive Committee
erred in entering the Executive Committee’s
Order in violation of the Petitioner’s 1st
Amendment Right to Petition the government and
also by not affording Plaintiff the Due Process and
Equal Protection rights’ requirements of the 5th
and 14th Amendment as mentioned in RinggoldLockhart and further, the Petitioner has done
nothing wrong pursuant to Goolsby and the
Executive Committee’s Order also does not state
what wrong the Petitioner did. The Petitioner has
no other avenue of seeking relief because
Petitioner’s Application to proceed on his appeal
as In Forma Pauperis against the Executive
Committee’s Order remains pending in the
Executive Committee since June 26, 2020, and the
Executive Committee is not deciding on the
Petitioner’s Application to proceed on his appeal
as In Forma Pauperis and there is no adequate
record for review which is one of the requirements
for the entry of a pre-filing order pursuant to
Executive
the
Ringgold-Lockhart.
Hence

37

Committee’s Order is void ab intio.
Regarding the dismissal of Case # 20-cv-50133,
the Petitioner has not violated any part of Rule 8
(a) and Judge Blakey did not even read the
complaint which is clearly evident with his order
which states that the complaint is 1,125 pages.
Further, the dismissal of Case # 20-cv-50133
offends the following case laws and authorities.
1) Davis v. Ruby Foods, Inc.,
2) Vibe Micro, Inc. v. Shabanets,
3) Bennett v. Schmidt
4) Kittay v. Kornstein,
5) Kuehl v. FDIC, and
6) Simmons v. Abruzzo
Hence the order which dismissed the Case # 20cv-50133 is void ab intio because it offends abovementioned authorities, because Judge Blakey did
not read the Fifth Amended Complaint as he does
not even know how many pages long is the Fifth
Amended Complaint in Case # 20-cv-50133,
because Judge Blakey does not have subject
matter jurisdiction to dismiss Fifth Amended
Complaint in Case # 20-cv-50133 under Rule 8 (a)
because he has not even read the Fifth Amended
Complaint, and because the Fifth Amended
Complaint does not violate any part of the Rule 8
(a). Further, it is fair to say that all the individual
respondents conspired together and worked in
concert to have the Case # 20-cv-50133 dismissed
m an unlawful manner. Further, the Petitioner
has not violated any court order and he does not
know which order Judge Blakey is referring to in
(App-34). Further, the Petitioner requests this
court to take judicial notice of Mohammed v the
State of Illinois, Case.No.20-cv-50133, ND.I1.

38

CONCLUSION
For the reasons set forth above, this court should
grant the petition for mandamus, vacate the
Executive Committee’s Order and also vacate the
order dismissing the Case # 20-cv-50133. The
level of dishonesty of the individual Respondents
is
unprecedented
and
these
individual
Respondents have sullied the very sanctity and
integrity of the court itself. If this court does not
intervene and grant the mandamus and take
appropriate action against these individual
Respondents, the cause of justice will die a very
painful death.
itted,
Respectfully/
Abdul Mohankrmd^
Pro Se Petitioner
258 E. Bailey Rd, Apt C,
Naperville, IL 60565
630-854-5345
amohammed@hotmail.com
July 16, 2020

39

